Audit Report




OIG-09-003
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2008 and 2007 Financial Statements


November 3, 2008




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 3, 2008


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2008 and 2007 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2008 and 2007. Under a contract
            monitored by the Office of Inspector General, KPMG LLP, an independent certified
            public accounting firm, performed an audit of the financial statements of BEP as of
            September 30, 2008 and 2007 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles
                •   that management’s assertion that BEP maintained effective internal control
                    over financial reporting as of September 30, 2008 was fairly stated in all
                    material respects.
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
            standards, was not intended to enable us to express, and we do not express,
            opinions on BEP’s financial statements or BEP management’s assertion on the
            effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated October 28, 2008 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Donna Joseph, Audit Manager, Financial Audits
at (202) 927-5784.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2008 and 2007


(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY
                                        BUREAU OF ENGRAVING AND PRINTING
                                                 FINANCIAL STATEMENTS
                                     FOR THE YEARS ENDED SEPTEMBER 30, 2008 AND 2007

                                                                  TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT .................................................................................................................1


FINANCIAL STATEMENTS ...................................................................................................................................2

     Balance Sheets .......................................................................................................................................................2
     Statements of Operations and Cumulative Results of Operations .........................................................................3
     Statements of Cash Flows ......................................................................................................................................4
     Notes to the Financial Statements ..........................................................................................................................5

MANAGEMENT’S REPORT
ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................15

INDEPENDENT AUDITORS’ REPORT
ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................16

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
AND OTHER MATTERS .......................................................................................................................................17
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the accompanying balance sheets of the Bureau of Engraving and Printing (Bureau) as of
September 30, 2008 and 2007, and the related statements of operations and cumulative results of
operations and cash flows (hereinafter referred to as “financial statements”) for the years then ended. These
financial statements are the responsibility of the Bureau’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements, assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Bureau of Engraving and Printing as of September 30, 2008 and 2007, and the
results of its operations and its cash flows for the years then ended in conformity with U.S. generally
accepted accounting principles.

We have also examined management’s assertion that the Bureau maintained effective internal control over
financial reporting as of September 30, 2008, and have issued our report thereon dated October 28, 2008.
That report is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in assessing the results of our fiscal year 2008 audit.

In accordance with Government Auditing Standards, we have also issued our report dated October 28,
2008, on our tests of the Bureau’s compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report is to describe the scope of our testing of compliance and the
results of that testing, and not to provide an opinion on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our fiscal year 2008 audit.




October 28, 2008




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                                 THE DEPARTMENT OF THE TREASURY
                                BUREAU OF ENGRAVING AND PRINTING
                                                    Balance Sheets
                                           As of September 30, 2008 and 2007


                                                                                    2008            2007
                                                                                       (In Thousands)
ASSETS
Current assets
  Cash (Note 3)                                                                $   153,511   $    175,980
  Accounts receivable (Note 10)                                                     46,552         39,134
  Inventories, net (Note 4)                                                        103,967        107,102
  Prepaid expenses                                                                   4,871          5,452
Total current assets                                                               308,901        327,668


Property and equipment, net (Note 5)                                               281,876        256,056
Other assets, net (Note 6)                                                          18,059          18,459
Total assets                                                                   $   608,836   $    602,183


LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                            $    13,359   $      15,507
   Accrued liabilities                                                              28,585          29,289
   Advances                                                                          6,477           1,623
Total current liabilities                                                           48,421          46,419

Workers' compensation liability (Note 8)                                            61,447          57,435
Total liabilities                                                                  109,868        103,854

Contingencies and commitments (Notes 12 and 13)

Equity
  Invested capital                                                                  32,435         32,435
  Cumulative results of operations                                                 466,533        465,894
Total equity                                                                       498,968        498,329
            Total liabilities and equity                                       $   608,836   $    602,183


See accompanying notes to the financial statements.




                                                           2
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                         Statements of Operations and
                                       Cumulative Results of Operations
                               For the Years Ended September 30, 2008 and 2007


                                                                                 2008            2007
                                                                                    (In Thousands)
Revenue from sales (Note 10)                                             $       516,610   $    578,111
Cost of goods sold                                                               443,263        461,565
Gross margin                                                                      73,347        116,546

Operating costs:
  General and administrative expenses                                             60,262         56,219
  Research and development                                                        12,446         13,996
                                                                                  72,708         70,215

Excess of revenues over expenses                                                    639          46,331

Cumulative results of operations at beginning of year                            465,894        419,563
Cumulative results of operations at end of year                          $       466,533   $    465,894


See accompanying notes to the financial statements.




                                                        3
                                   THE DEPARTMENT OF THE TREASURY
                                  BUREAU OF ENGRAVING AND PRINTING
                                          Statements of Cash Flows
                              For the Years Ended September 30, 2008 and 2007


                                                                                 2008           2007
                                                                                    (In Thousands)
Cash flows from operating activities
Excess of revenues over expenses                                           $       639     $    46,331
  Adjustments to reconcile excess of revenues over expenses
    to net cash provided by operating activities:
    Depreciation                                                                 28,619         31,990
    Loss from disposal of property and equipment                                     38             —
  Changes in assets and liabilities
    Increase in accounts receivable                                              (7,418)        (6,102)
    Decrease (increase) in inventories                                            3,135        (23,586)
    Decrease (increase) in prepaid expenses                                         581         (1,131)
    Decrease (increase) in other assets                                             400           (934)
    (Decrease) increase in accounts payable                                      (2,148)         3,689
    Decrease in accrued liabilities                                                (704)          (476)
    Increase in advances                                                          4,854            724
    Increase (decrease) in workers' compensation liability                        4,012         (1,572)
       Net cash provided by operating activities                                 32,008         48,933


Cash flows from investing activities
Purchases of property and equipment                                             (54,477)       (37,682)
        Net cash used in investing activities                                   (54,477)       (37,682)

Net (decrease) increase in cash                                                 (22,469)        11,251
Cash at beginning of year                                                       175,980        164,729
Cash at end of year                                                        $    153,511    $   175,980


See accompanying notes to the financial statements.




                                                      4
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2008 and 2007



1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists Federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two Federal revolving funds. The
majority of all financial transactions (approximately 99%) are contained in the Bureau of
Engraving and Printing Revolving Fund, which finances Bureau operations. The other revolving
fund, the Mutilated Currency Revolving Fund, is used to redeem damaged paper currency
received from the public. All significant balances and transactions between the funds have been
eliminated in consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of federal government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting




                                                5                                      (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2008 and 2007

standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S. Treasury
and are available to pay liabilities. The Bureau historically does not maintain significant cash
balances in commercial bank accounts, and owns no cash equivalents.

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed herein.

Inventories

Raw material and supply inventories are stated at standard cost, except for one advanced counterfeit
deterrent material which is valued using the first-in-first-out (FIFO) method. Finished goods
inventories are stated at weighted average unit cost. All methods approximate actual cost. Cost
elements included in work-in-process and finished goods inventories are direct materials, direct
labor, manufacturing overhead, and manufacturing support.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization threshold
is $50,000. The Bureau capitalizes all cost associated with new construction and building
improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury. In
accordance with the Act establishing the revolving fund, the Bureau is not charged for the use of the
buildings or land, but is responsible for maintenance and repair of all buildings and land
improvements. The land and building shell for the Bureau's Western Currency Facility were
donated by the City of Fort Worth, Texas to the Department of the Treasury. See Note 5 for details.




                                                6                                      (continued)
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2008 and 2007

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years

Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the
production of the Bureau's products. Other assets are stated at actual cost, net of a reserve for
obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered Federal civilian employees injured on the job, employees who have incurred a work-
related occupational disease and beneficiaries of employees whose death is attributable to a job-
related injury or occupational disease. Claims incurred for benefits for the Bureau's employees
under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau




                                                 7                                        (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2008 and 2007

reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. These annual benefit payments have been discounted to present
value using the Office of Management and Budget’s (OMB) economic assumptions for 10-year
Treasury notes and bonds, which resulted in a discount rate of 4.37% in year one and 4.77%
thereafter. Based on information provided by DOL, the Department of the Treasury allocated
the overall liability to Treasury components based on past claims paid.

Annual, Sick and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve System is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Advertising Costs

Research and development costs and advertising costs are expensed as incurred. Advertising
costs, which are reported in cost of goods sold, amounted to $8.4 million and $3.4 million in the
years ended September 30, 2008 and 2007, respectively.




                                                8                                     (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2008 and 2007

Tax Status

The Bureau is a Federal entity, and therefore is not subject to Federal, state, or local income
taxes. Accordingly, no provision for income taxes is required in the accompanying financial
statements.

Contingencies

Liabilities from loss contingencies, including environmental remediation costs not within the
scope of FASB Statement No. 143, Accounting for Asset Retirement Obligations, arising from
claims, assessments, litigation, fines and penalties, and other sources, are recorded when it is
probable that a liability has been incurred and the amount of the assessment and/or remediation
cost can be reasonably estimated. Loss contingencies that do not meet these criteria, but are
reasonably possible and estimable are not accrued, but are disclosed in Note 12.

3. Cash

The year-end cash balances by fund are as follows as of September 30, 2008 and 2007:

                                                                      2008           2007
                                                                         (In Thousands)
 Bureau of Engraving and Printing
   Revolving Fund                                            $      152,766    $ 175,154
 Mutilated Currency Revolving Fund                                      745          826
 Total                                                       $      153,511    $ 175,980


The balance in the mutilated currency revolving fund, consisting of processed claims for
mutilated currency submitted by the public for redemption, is offset by a liability to the public.

4. Inventories, net

Inventories consist of the following as of September 30, 2008 and 2007:

                                                                      2008           2007
                                                                         (In Thousands)
 Raw material and supplies                                    $      40,517    $    48,864
 Work-in-process                                                     36,619         35,977
 Finished goods - currency                                            3,232          4,504
 Finished goods - uncut currency                                     23,599         17,757
 Total                                                        $     103,967    $   107,102




                                                9                                      (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2008 and 2007

The allowance for inventory obsolescence was $665 thousand and $560 thousand, at
September 30, 2008 and 2007, respectively.

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2008 and 2007:

                                                                     2008           2007
                                                                        (In Thousands)
 Machinery and equipment                                    $      434,795     $ 393,846
 Building and land improvements                                    236,040        229,734
 IT equipment and software                                          22,060         20,467
 Office machines                                                     1,103          1,103
 Furniture and fixtures                                              1,140          1,140
 Donated assets - art work                                             125             125
 Motor vehicle                                                         212             212
                                                                   695,475        646,627
 Less accumulated depreciation                                     455,184        443,670
                                                                   240,291        202,957
 Construction-in-progress                                           41,585         53,099
 Net property and equipment                                 $      281,876     $ 256,056


Depreciation expense for the years ended September 30, 2008 and 2007 was $28.6 million and
$32.0 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was $5.6
million. In accordance with the provisions of Public Law 81-656, Bureau financial statements
include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2008 and 2007 was
$5.7 million and $4.9 million, respectively.




                                              10                                     (continued)
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2008 and 2007

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2008 and
2007:

                                                                     2008            2007
                                                                        (In Thousands)
 Intragovernmental                                            $     10,952     $    5,344
 With the public                                                    37,469         41,075
 Total                                                        $     48,421     $ 46,419

 Accrued current liabilities consist of the following as of September 30, 2008 and 2007:

                                                                     2008            2007
                                                                        (In Thousands)
 Payroll                                                      $     11,128     $ 13,758
 Annual leave                                                       10,775          9,994
 Workers' compensation                                               4,874          4,220
 Other                                                               1,808          1,317
 Total                                                        $     28,585     $ 29,289


8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2008 and 2007, but not yet reimbursed to
DOL by the Bureau, are approximately $11.7 million and $10.7 million, of which approximately
$4.9 million and $4.2 million represents a current liability, as of September 30, 2008 and 2007,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially-derived future workers’ compensation liability was
approximately $54.6 million and $50.9 million as of September 30, 2008 and 2007, respectively.

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $16.1 million and 15.9 million for 2008 and
2007, respectively. The CSRS employer contribution rate for fiscal years 2008 and 2007 was
7.0%. The FERS agency contribution rate for fiscal years 2008 and 2007 was 11.2%. The cost
of providing the CSRS and FERS benefits is more than the amounts contributed by the Bureau
and the employees to OPM. The additional cost of providing benefits, including the cost
financed by OPM, which is not included in the Bureau's Statements of Operations, totaled $23.1
million in 2008 and 2007.

OPM paid costs totaling $10.3 million and $11.4 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in




                                               11                                     (continued)
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements
                                  September 30, 2008 and 2007

2008 and 2007, respectively.      These costs are not included in the Bureau's Statements of
Operations.

10. Related Party Transactions and Concentration of Revenue

The Bureau’s principal customers are other Federal and quasi-Federal governmental
organizations. During 2008 and 2007, the Bureau’s sales revenue from these organizations as
well as the outstanding amounts due from them as of September 30, 2008 and 2007, are reflected
in the following table:

                               Revenue for the year ended           Accounts Receivable as of
                                     September 30                        September 30
                                  2008            2007                 2008           2007
 Federal Reserve System:             (In Thousands)                      (In Thousands)
  Currency Production        $ 492,343      $ 553,764             $   45,219     $    37,449
  Mutilated Currency              3,757           3,948                  942             974
 Other Federal Agencies           7,841           5,362                  391             711
                                503,941         563,074               46,552          39,134

 Public sales                      12,669                15,037            —                —
 Total                       $    516,610      $        578,111   $    46,552     $     39,134


Revenues from other Federal agencies are derived principally from the sale of security printing
products to U.S. Government agencies and related fees charged.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper, and several
advanced counterfeit deterrent materials.

12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. Contingencies for
litigations involving the Bureau, where the risk of loss was probable, were approximately $800
thousand and $402 thousand as of September 30, 2008 and 2007, respectively, and have been
accrued in the accompanying financial statements. Contingencies, where the risk of loss was
reasonably possible, were approximately $4.5 million and $3.4 million as of September 30, 2008
and 2007, respectively. Since the risk of loss for these litigations was not probable, the Bureau
did not record any liability. Management believes that the ultimate resolution of these litigations
will not have a material impact on the reported financial position, results of operations, and cash
flows.




                                                   12                                   (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2008 and 2007

The American Council of the Blind and others have filed suit against the Department of the
Treasury under Section 504 of the Rehabilitation Act seeking the redesign of U.S. currency. In
2007, a judge ruled that the current U.S. currency design violates this Act and this ruling was
appealed. In 2008, the United States Court of Appeals for the District of Columbia Circuit
affirmed this ruling. No monetary damages were awarded by the Court. However, the Bureau is
required to provide meaningful access to United States currency for blind and other visually
impaired persons. This may require changes to U.S. currency (excluding the one-dollar note).
The Court ordered such changes shall be completed, in connection with each denomination of
currency, not later than the date when a redesign is next approved by the Secretary of the
Treasury. Because the cost of these changes will be incorporated into future currency redesign
costs, no costs have been accrued in the accompanying financial statements as of September 30,
2008 and 2007.

The United States Court of Appeals, in the above mentioned case, also ordered that the Bureau
of Engraving and Printing pay the American Council of the Blind and others for attorney’s fees
and costs. Such fees and costs are estimated to be $800,000. As noted above, this amount has
been accrued and is included in other accrued liabilities.

Judgments resulting from litigation against the Bureau are paid by the Department of the
Treasury Judgment Fund. The Bureau is required to reimburse the Judgment Fund for paid
claims related to employee discrimination and contract disputes. There were no amounts due to
the Judgment Fund as of September 30, 2008 and 2007.

The Bureau has contracted to purchase over-printing presses, incorporating automated inspection
and packaging capability, costing approximately $49.0 million of which $3.5 million and $6.9
million was paid in 2008 and 2007, respectively. The Bureau has also contracted to purchase
intaglio printing presses, costing approximately $55.8 million, of which $13.4 million and $12.2
million was paid in 2008 and 2007, respectively. Delivery of the presses will be determined
upon successful completion of final factory inspection tests.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.




                                              13                                     (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2008 and 2007

13. Operating Lease

In 2002, the Bureau entered into a cancelable operating lease for warehouse space that expires in
2012. The lease contains a renewal option for 10 years.

Rental expense for the years ended September 30, 2008 and 2007 was $1.8 million and $1.3
million, respectively.

Future minimum payments under the lease as of September 30, 2008, are (in thousands):


   For the years ending September 30:

                     2009                                    $        1,826
                     2010                                             1,838
                     2011                                             1,850
                     2012                                               935
   Total                                                     $        6,449




                                               14
15
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have examined management’s assertion, included in the accompanying “Management’s Report on
Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing (Bureau)
maintained effective internal control over financial reporting as of September 30, 2008, based on the
criteria established in Internal Control – Integrated Framework issued by the Committee of Sponsoring
Organizations (COSO) of the Treadway Commission. The Bureau’s management is responsible for
maintaining effective internal control over financial reporting and for its assertion on the effectiveness of
internal control over financial reporting. Our responsibility is to express an opinion on management’s
assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants and the standards applicable to attestation engagements contained
in Government Auditing Standards, issued by the Comptroller General of the United States and,
accordingly, included obtaining an understanding of internal control over financial reporting, testing, and
evaluating the design and operating effectiveness of internal control, and performing such other procedures
as we considered necessary in the circumstances. We believe that our examination provides a reasonable
basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to errors or fraud may occur and
not be detected. Also, projections of any evaluation of internal control over financial reporting to future
periods are subject to the risk that the internal control may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that the Bureau maintained effective internal control over financial
reporting as of September 30, 2008 is fairly stated, in all material respects, based on the criteria established
in Internal Control – Integrated Framework issued by COSO.




October 28, 2008




                                                                         16
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheets of the Bureau of Engraving and Printing (Bureau) as of September 30,
2008 and 2007, and the related statements of operations and cumulative results of operations and cash
flows (hereinafter referred to as “financial statements”) for the years then ended and have issued our report
thereon dated October 28, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s financial
statements are free of material misstatement, we performed tests of the Bureau’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Bureau. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 28, 2008




                                                                         17
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
